<html>
<title> - ENCRYPTION TECHNOLOGY AND POTENTIAL U.S. POLICY RESPONSES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
       ENCRYPTION TECHNOLOGY AND POTENTIAL U.S. POLICY RESPONSES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-143

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-879 PDF             WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Chief of Staff
                 David Rapallo, Minority Chief of Staff
   Troy Stock, Staff Director, Subcommittee on Information Technology
                      Sarah Vance, Staff Assistant

                                 ------                                

                 Subcommittee on Information Technology

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2015...................................     1

                               WITNESSES

Ms. Amy Hess, Executive Assistant Director, Federal Bureau of 
  Investigation
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Daniel F. Conley, Suffolk County District Attorney, 
  Massachusetts
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Kevin S. Bankston, Policy Director, New America's Open 
  Technology Institute
    Oral Statement...............................................    25
    Written Statement............................................    27
Mr. Jon Potter, President, Application Developers Alliance
    Oral Statement...............................................    43
    Written Statement............................................    45
Dr. Matt Blaze, Associate Professor, Computer and Information 
  Science, School of Engineering and Applied Science, University 
  of Pennsylvania                                                    53


       ENCRYPTION TECHNOLOGY AND POTENTIAL U.S. POLICY RESPONSES

                              ----------                              


                       Wednesday, April 29, 2015

                  House of Representatives,
             Subcommittee on Information Technology
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:32 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Hurd, Farenthold, Walker, Blum, 
Chaffetz, Kelly, Connolly, and Lieu.
    Mr. Hurd. The Subcommittee on Information Technology will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    Good afternoon, everyone. And thanks for attending today's 
hearing. And I appreciate your flexibility with time. Votes 
always come at the inopportune moment.
    In September of last year, Apple and Google, the largest 
mobile device manufacturers in the United States, announced 
that they would implement increased security measures on their 
products in an attempt to strengthen privacy and data security.
    These developments were met with concern from some law 
enforcement entities, such as the FBI, who were worried that 
this increased level of encryption would lead to an inability 
to access data on specific devices and that, despite obtaining 
a warrant, investigatory efforts could be hindered by this.
    As a former CIA officer, I understand and appreciate the 
need and desire for law enforcement to access digital 
information in a timely manner. However, I also understand the 
protections afforded to Americans provided by the Constitution, 
and I have taken an oath two times to protect and defend these 
rights.
    I firmly believe that law enforcement officials must gain 
the trust of the very people they are trying to protect in 
order to be successful, and I remain concerned that a 
government-mandated back or front door on U.S.-based mobile 
device manufacturers might undermine that trust.
    Today's hearing will involve testimony from a variety of 
experts and stakeholders and representatives on ways to balance 
law enforcement needs with privacy and security concerns. The 
hearing will also explore the impact of this debate on domestic 
privacy, American consumers, and U.S. technology manufacturers.
    As technology continues to evolve and encryption 
capabilities become a part of everyday life for all Americans, 
this debate will only grow larger. I believe we can find a way 
to protect the privacy of law-abiding citizens and ensure that 
law enforcement have the tools they need to catch the bad guys.
    I welcome the witnesses and look forward to today's 
discussion.
    Mr. Hurd. I would like to now recognize my friend and the 
ranking member of the subcommittee, Ms. Kelly of Illinois, for 
5 minutes for an opening statement.
    Ms. Kelly. Thank you, Mr. Chairman.
    And thank you to our witnesses for appearing on today's 
panel.
    Recently companies like Apple and Google have announced 
plans to incorporate automatic encryption for their mobile 
devices. Encryption will become the default privacy feature on 
their mobile devices, making their content unreadable and 
inaccessible without the user's selected pass code.
    As a society, we rely on mobile devices to manage and 
protect many aspects of our lives, personal, professional, and 
financial. Privacy on our smartphones is critically important. 
Hackers are concerned, as is unrestricted government 
surveillance.
    According to a May 2014 study on trends in U.S. smartphone 
industry, Android and Apple control 52.1 and 41.9 percent share 
of the market. Their move towards automatic encryption will 
have a significant effect on the industry standard for privacy 
protections.
    The move towards automatic encryption has been criticized 
as seriously hindering law enforcement operations. Criminals, 
like noncriminals, use mobile devices to manage the many 
aspects of their lives, some of which can provide evidence of a 
crime.
    Today many criminal cases have a digital component and law 
enforcement entities increasingly rely on the content of mobile 
devices to further an investigation or prosecution of serious 
crimes of national security threats. The FBI, local law 
enforcement departments, and prosecutors have all expressed 
concern with automatic encryption.
    They envision a number of scenarios in which the inability 
to assess data kept on mobile devices will seriously hinder a 
criminal investigation. They do not want to be in a position to 
tell a victim of a crime or the family of a victim that they 
cannot save someone or prosecute someone because they cannot 
access the content of a mobile device. There is a balance to be 
struck here.
    It is important that the Government's policies approach 
ensures privacy protections and it is important that law 
enforcement, under tightly controlled circumstances, have the 
ability to investigate and prosecute crimes. I look forward to 
today's hearing and your testimony.
    Thank you, Mr. Chairman. I look forward to continue working 
with you to examine policy issues related to advancement and 
information technology.
    I yield back.
    Mr. Hurd. Thank you.
    I am now pleased to recognize Mr. Chaffetz of Utah, the 
chairman of the full committee, for an opening statement.
    Mr. Chaffetz. I thank the chairman.
    And I appreciate your passion on this topic. It affects 
literally every American. It affects people all across the 
world.
    I think one of the great questions that needs to be posed 
to our society and certainly our country as a whole is how to 
find the right balance between personal privacy and national 
security. And I, for one, am not willing to give up every bit 
of privacy in the name of security. So how do we find that 
right balance? It is not easy to find.
    In response to recent moves by Apple and Google mentioned 
by Chairman Hurd, the FBI Director Comey recommended, quote,''a 
regulatory or legislative fix,'' end quote, which would force 
companies to manufacture their mobile devices in such a way 
that law enforcement can access the data on those devices 
without a warrant or court order.
    I have three general concerns about Director Comey's 
proposal:
    First, it is impossible to build just a back door for just 
the good guys, you know, just the good guys can get this. If 
somebody at the genius bar can figure it out, so can the 
nefarious folks in a van down by the river.
    As Alex Stamos, Yahoo's chief information security officer, 
recently explained, all of the best public cryptographers in 
the world would agree that you can't really build back doors in 
crypto. That is like drilling a hole in a windshield.''
    The Commerce Department's National Institute of Standards 
and Technology's chief cybersecurity adviser agreed, saying, 
quote, ``There is no way to do this where you don't have an 
unintentional vulnerability,'' end quote. And I worry about 
those unintentional vulnerabilities.
    We have a wide variety of experts on the panel today to 
help us examine some of the potential economic, privacy, 
security, and geopolitical consequences of introducing a 
vulnerability into the system.
    Second, we already live in what some experts have referred 
to as the, quote, ``golden age of surveillance,'' end quote, 
for law enforcement. Federal, State, and local law enforcement 
never had more tools at their disposal to help detect, prevent, 
and prosecute crime. It seems that we hear every day there is 
new, often-startling stories about the United States 
Government's ability to track its own citizens.
    I recognize technology can be a double-edged sword and many 
pose challenges for law enforcement as well, but we are 
certainly not going to go dark, and in many ways we have never 
been brighter.
    Third, strong encryption prevents crime and is a part of 
the economy. People keep their lives in their mobile phones. A 
typical mobile phone might hold a person's pictures, contacts, 
communications, finance schedule, and much more personal 
information, in addition to my Words with Friends, which is 
critical to my daily sanity.
    If your phone is lost or stolen, you want to know your 
information is protected, and encryption does that. There is a 
reason the world's largest technology companies are 
increasingly developing stronger and more frequently used 
encryption technology. It is not because they are anti-law 
enforcement. On the contrary. It is because sophisticated cyber 
hacks are nearly daily events.
    No one is immune from digital snooping, from the White 
House, to corporate America, to private citizens. The 
opportunity brought to us by the modern technologies are near 
limitless, but not if the system is compromised. Strong 
encryption helps ensure data is secure and allows companies and 
individuals to operate with confidence and trust.
    I look forward to hearing from our witnesses today. But we 
have choices to make. Do we allow the 99 percent of Americans 
who are good, honest, decent, hard-working, patriotic people to 
have encrypted phones or do we need to leave a back door open 
and create vulnerability for all of them?
    Because vulnerability is--it is all or none, folks. It is 
not just a little bit, not just for the good guys. And that is 
why we are having this hearing today. I appreciate Chairman 
Hurd and what he is doing. And I appreciate and thank you all 
for being here as witnesses today.
    I yield back.
    Mr. Hurd. Thank you.
    I am going to hold the record open for 5 legislative days 
for any members who would like to submit a written statement.
    We will now recognize our panel of witnesses.
    I am pleased to welcome Ms. Amy Hess, Executive Assistant 
Director of the Science and Technology Branch at the Federal 
Bureau of Investigation; Mr. Daniel Conley, District Attorney 
of Suffolk County, Massachusetts; Mr. Kevin Bankston, Policy 
Director at New America's Open Technology Institute; Mr. John 
Potter, President of the Application Developers Alliance; and 
Dr. Matthew Blaze, Associate Professor of Computer and 
Information Science of the School of Engineering and Applied 
Science at the University of Pennsylvania. Welcome to all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So please rise and raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Mr. Hurd. Let the record reflect that all witnesses 
answered in the affirmative. Thank you.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    And, Ms. Hess, we will start with you. You are recognized 
for 5 minutes.

                       WITNESS STATEMENTS

                    STATEMENT OF AMY S. HESS

    Ms. Hess. Thank you. Good afternoon, Chairman Chaffetz, 
Chairman Hurd, Ranking Member Kelly, and members of the 
subcommittee. Thank you for the opportunity to appear here 
today and for your continued support of the men and women of 
the FBI.
    The Bureau has undergone an unprecedented transformation in 
recent years to address and prevent threats to our national 
security and our public safety. But as those threats continue 
to evolve, the FBI must evolve as well. Today's FBI is a 
threat-focused, intelligence-driven organization, and we must 
continuously challenge ourselves to stay ahead of changing 
threats and changing circumstances.
    As you know, technology has forever changed the world we 
live in. Our phones and computers have become reflections of 
our personalities, interests, and our identities. And with that 
comes the need to protect our privacy and our data.
    But technology can be used by some very dangerous people, 
and the FBI has a sworn duty to keep every American safe from 
harm while simultaneously protecting their constitutional 
rights and preserving their civil liberties.
    Moreover, we recognize our national interests in promoting 
innovation and the competitiveness of U.S. companies in the 
global marketplace, as well as freedom of expression around the 
world.
    But the evolution of technology creates new challenges for 
law enforcement. It impacts our ability to access 
communications pursuant to court orders, which means those of 
us charged with protecting the American people aren't always 
able to access the information we need to prosecute criminals 
and prevent terrorism, even though we have the lawful authority 
to do so.
    To be clear, we obtain the proper legal authority to 
intercept and access communications and information, but we 
increasingly lack the technical ability to do so. This problem, 
which we refer to as ``going dark,'' is broader and more 
extensive than just encryption, but for the purposes of today's 
testimony, I will focus on the challenges of the evolving use 
of encryption.
    We encounter encryption in two overlapping contexts. The 
first is legally authorized realtime interception of what we 
call data in motion, such as phone calls, emails, and text 
messages in transit. The second concerns legally authorized 
access to data stored on our devices or what we call data at 
rest.
    First let me address court-ordered interception of data in 
motion. In the past, there were a limited number of 
communication carriers conducting electronic surveillance and 
it was more straightforward. We developed probable cause to 
believe a suspected criminal was using a target phone to commit 
a felony. We then obtained a court order for a wiretap on that 
phone. And under the supervision of a judge, we collected the 
evidence we needed for prosecution.
    Today there are countless providers, networks, and means of 
communicating. We have laptops, smartphones, and tablets. We 
use multiple networks and any number of apps. And so do those 
conspiring to harm us. They use the same devices, the same 
networks, and the same apps to make plans, target victims, and 
concoct alibis. Thousands of companies now provide some form of 
communication service, but most do not have the ability to 
isolate and deliver particular information when urged to do so 
by a court.
    Turning to court-ordered access to data at rest, we know 
that encryption of stored data is not new, but it has become 
increasingly prevalent and sophisticated. And the challenge to 
law enforcement and national security officials has been 
heightened with the advent of default encryption settings and 
stronger encryption standards.
    In the past, the consumer had to decide whether to encrypt 
data stored on his or her device and take action. But with 
today's new operating systems, a device and all of the user's 
information on the device can be encrypted by default. Further, 
companies have developed encryption technology which makes it 
impossible for them to decrypt data on devices they 
manufacture, even when lawfully ordered to do so.
    Although there are certainly good reasons to support these 
new uses of encryption, such decisions regarding system design 
have a tremendous impact on our ability to fight crime and 
bring perpetrators to justice. Like the general population, 
criminals are increasingly storing such information on 
electronic devices and, if these devices are encrypted, the 
information they contain may be unreadable to anyone other than 
the user. The process of obtaining a search warrant authorized 
by a court of law to seek evidence of a crime could be an 
exercise in futility.
    To be clear, we in the FBI support and encourage the use of 
secure networks and sophisticated encryption to prevent cyber 
threats. We know that adversaries will exploit any 
vulnerability they find, but we believe that security risks 
associated with the implementation of lawfully authorized 
access are better addressed by developing solutions during the 
design phase rather than resorting to a patchwork solution 
after the product or service has been deployed.
    Just as we have an obligation to address threats to 
national security and public safety, we likewise have an 
obligation to consider the potential impact of our 
investigations on civil liberties, including the right to 
privacy. We must always act within the confines of the rule of 
law and the safeguards guaranteed by the Constitution.
    We also believe that no one in this country should be 
beyond the law. The notion that a suspected criminal's closet 
could never be opened or his phone could never be unlocked, 
even with properly obtained legal authority, is troubling.
    We will, of course, use every lawfully authorized technique 
we have to protect the citizens we serve, but having to rely on 
those other tools could delay criminal investigations, preclude 
us from identifying victims and coconspirators, risk 
prematurely alerting suspects to our investigative interests, 
and potentially put lives in danger.
    Thank you again for this opportunity to discuss the FBI's 
priorities and the challenges of ``going dark.'' The work we do 
would not be possible without the support of Congress and the 
American people. I look forward to your questions.
    [Prepared statement of Ms. Hess follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Hurd. Thank you, Ms. Hess.
    Now we recognize Mr. Conley for 5 minutes.

                 STATEMENT OF DANIEL F. CONLEY

    Mr. Conley. Chairman Hurd, Ranking Member Kelly, and 
members of the subcommittee, my name is Dan Conley, and I'm the 
District Attorney in Boston and a member of the National 
District Attorneys Association, the largest association of 
prosecutors in America. Thank you for the invitation to testify 
today here today on this critical issue.
    Last year, when Apple and Google announced their new 
operating system, they touted that the technology would not 
allow law enforcement, even with a court order, to access 
information on its mobile devices.
    In America, we often say that none of us is above the law. 
But when corporate interests place crucial evidence beyond the 
legitimate reach of our courts, they are, in fact, granting 
those who rape, defraud, assault, or even kill a profound legal 
advantage over victims in society. So I'm here today to ask 
Congress to intervene.
    As a prosecutor, my most important duty is to ensure that 
evidence we present in court is gathered fairly, ethically, and 
legally. If it's not, if a search is improper, a court will 
suppress that evidence and exclude it.
    We, as Americans, enjoy a presumptive right to privacy that 
may only be abridged under clearly defined circumstances, such 
as when there are specific articulable facts that would lead a 
judge to believe that the place to be searched will yield 
evidence of a crime. In decades past, these places were car 
trunks and safety deposit boxes. Today they are mobile devices.
    We undertake those searches to solve crimes. We don't 
wander to Web sites where people visit or aggregate data about 
people's personal health, wealth, or shopping habits. That, 
frankly, is the purview of companies like Apple and Google.
    Their nominal commitment to privacy rights would be far 
more credible if they were forbidding themselves access to 
their customers' interests, search terms, and consumer habits. 
But, as we all know, they are taking full advantage of their 
customers' private data for commercial purposes while building 
an impenetrable barrier around evidence in legitimate court-
authorized investigations.
    For over 200 years of American jurisprudence, our courts 
have balanced the rights of individuals against society. But, 
in this case, in one fell swoop, Apple and Google have upended 
it. They have created hiding places not merely beyond the reach 
of law enforcement, but beyond the laws that define our Nation.
    Let me give you an idea of what this means in practical 
terms. In every big city, there's a mass transit system and a 
disgraceful practice of snapping photographs up women's skirts 
has taken place. If the offender's phone cannot be searched 
pursuant to a warrant, then the evidence won't be recovered and 
this practice will be an unchargeable crime. This isn't even 
the worst of it.
    Three years ago we were investigating a child pornography 
case. We just thought a teacher was trading child pornography. 
Turns out, after we got a warrant and examined his mobile 
devices, he was not only collecting photographs, he was 
actually abusing children. After a multijurisdictional 
investigation, he's serving 45 years in prison. If those 
devices were encrypted today, he would be free to continue what 
he's doing on our streets.
    Human trafficking and commercial sexual exploitation of 
children is also aided and abetted by the same technology with 
victims, including children, advertised for sale on Web sites 
accessed through handheld devices. With these operating 
systems, those devices would become warrant-proof and the 
evidence they contain unreachable by investigators.
    Now, I don't believe Apple or Google set out to design an 
encryption system to protect human traffickers, but this is the 
result. When we talk about warrant-proof encryption, it is the 
perpetrators of every violent sexual or financial crime in 
which handheld technology is used who benefit. This isn't 
rhetoric. This is reality.
    Like most Americans, I am a customer of these companies and 
I hold my privacy interest dear, and I understand and I 
strongly encourage the use of secure encryption technology to 
prevent hacking, theft, and fraud. And I think most people 
recognize that there must be a balance struck between 
individual's privacy rights and the legitimate interests of our 
society to bring dangerous criminals to account. Apple and 
Google need to recognize this as well.
    I will conclude today by pointing out that, for the past 
several weeks, in Boston and around the country, individuals 
have all been following the trial of one of the individuals who 
was a terrorist in Boston 2 years ago and, through his actions, 
left four people dead and hundreds more grievously injured. 
Cell phone evidence, much of it volunteered by people, but some 
of it obtained by warrant, was critical to understanding what 
happened, how it happened, and who did it.
    Were law enforcement blocked from obtaining that evidence, 
the apprehension of those responsible for the Boston Marathon 
bombings might have been very much in doubt. So, again, I don't 
think Apple or Google intended to create a safe space for 
terrorists to do their deeds. But make no mistake. This is the 
result and those are the stakes.
    I therefore respectfully urge Congress to help us find a 
reasonable, balanced solution that protects privacy while also 
ensuring that there are reasonable means to gain lawful access 
to crucial evidence. I thank you for your time and attention, 
and I look forward to your questions. Thank you.
    [Prepared statement of Mr. Conley follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Hurd. Thank you, Mr. Conley.
    Now I would like to recognize Mr. Bankston for 5 minutes.

                 STATEMENT OF KEVIN S. BANKSTON

    Mr. Bankston. Thank you, Chairman, Ranking Member Kelly, 
members of the subcommittee.
    District Attorney Conley is absolutely right that 
encryption is one of the most critical law-and-order issues of 
our time. However--and with respect and thanks for his and the 
FBI's work to keep us all safer--he has got it exactly 
backward. Strong encryption is absolutely critical to the 
preservation of law and order in the digital age much more than 
it is a threat to it.
    Some have framed this debate as a choice between safety and 
privacy, but that is a false choice. The debate over whether to 
allow strong encryption without back doors is really a choice 
between safety and safety, a little more safety against some 
isolated crimes or much more safety for many more people 
against countless other concrete criminal and national security 
threats, be they street criminals looking to steal our phones 
and laptops, ID thieves and fraudsters and Russian hackers and 
corporate spies trying to steal our most valuable data, or 
foreign intelligence agencies trying to compromise our most 
sensitive national security secrets.
    The ultimate question isn't what will make law 
enforcement's job easier in some investigations. The ultimate 
question is what will prevent more crime, which will make law 
enforcement's job easier overall and will keep us all safer. 
The answer to that question is more strong encryption, not 
less.
    I won't deny that encrypted devices or end-to-end encrypted 
communications will, in some cases, inconvenience law 
enforcement. Notably, however, the Government has yet to 
provide a single specific example where such encryption has 
posed an insurmountable problem. That's likely because there 
are often a variety of other ways for law enforcement to get 
the evidence that it needs.
    The FBI is concerned that it's ``going dark.'' But, all in 
all, the digital revolution has been an enormous boon to law 
enforcement, what some have called a golden age of 
surveillance.
    More and more of our interactions with others and with the 
world are moving into the digital realm, being quantified and 
recorded, an unprecedented and exponentially growing cache of 
sensitive data about all of us, and most of it available to law 
enforcement.
    Think about the massive archives of private email and 
instant messages and text messages and photos and videos and 
the vast public records of our social network activities, most 
of which didn't exist or weren't available just 15 years ago, 
most of which are stored in the Internet cloud and are easily 
accessible to law enforcement, and much of which is backed up 
from the very same encrypted phones that the Government is 
concerned about.
    Think of all the new metadata revealing when and with whom 
all those messages were exchanged, where and when those photos 
and videos were taken. And think especially about all that new 
location data generated by our cell phones and by our mobile 
apps, creating extensive records of our movements regardless of 
whether those phones are encrypted or not.
    Think about all of that when law enforcement says it is 
going dark. I would counter that, by most measures, they are 
going bright. And in those few cases where they are in the dark 
and they truly need the data on an encrypted device, even then 
there are options.
    They can in many cases ask the Court to compel the owner to 
decrypt the device under threat of contempt or even remotely 
hack into the device over the Internet, a technique that is 
somewhat worrisomely being used more and more often.
    Admittedly, I have some serious constitutional concerns 
about both of those law enforcement techniques, but I am much 
more concerned that, in order to address those rare cases, law 
enforcement seems to want Congress to take steps that would 
undermine everyone's security rather than targeting an 
individual suspect.
    Make no mistake. Attempting to mandate encryption back 
doors will undermine everyone's security, as Professor Blaze 
will testify. That is the unanimous conclusion of every 
technical expert that has spoken publicly on this issue.
    And, as Mr. Potter will make clear, surveillance backdoor 
mandates would also undermine our economic security and prompt 
international customers and many American consumers and even 
many of the bad guys that we're trying to stop to turn away 
from the compromised products and services offered by U.S. 
companies.
    It's true now, just as it was true during the so-called 
crypto wars of the 1990s, weakening encryption is a bad idea. 
That is why a majority of the House of Representatives at the 
time, including four current members of this Oversight 
Committee, including Ranking Member Cummings, co-sponsored 
Chairman Goodlatte's Security and Freedom Through Encryption 
Act, which would have reaffirmed Americans' right to make, use, 
and distribute strong encryption products without back doors.
    That is why a majority of the House just last year voted 
for the Sensenbrenner-Massie-Lofgren Amendment that would have 
prohibited the NSA from demanding or even asking that companies 
weakenthe security of their products. And that is why this 
Congress should similarly reject any short-sighted backdoor 
proposals in favor of preserving our long-term national and 
economic security.
    Thank you very much. And I look forward to your questions, 
in particular, any questions about the 10 specific arguments 
laid out in my written testimony. Thank you.
    [Prepared statement of Mr. Bankston follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
    Mr. Hurd. Thank you, Mr. Bankston.
    Mr. Potter, 5 minutes.

                    STATEMENT OF JON POTTER

    Mr. Potter. Thank you, Chairman Hurd, Ranking Member Kelly, 
members of the subcommittee.
    The 3-year-old App Developers Alliance includes more than 
200 companies and more than 35,000 individuals worldwide. Thank 
you for inviting me to speak today about the challenges app 
developers and our digital industry partners face if we are 
required to both protect privacy and provide Government with 
privacy-breaching back doors.
    First, it is important to highlight that protecting digital 
data through innovative security-based products is 
unquestionably good for businesses and consumers. In contrast, 
back doors make apps less secure and less trustworthy.
    Second, we must remember that data protection is not only 
about civil liberties and privacy. Encryption prevents 
cybercrime, which threatens fundamental economic interests that 
operate digitally, including health care, transportation, 
banking, and manufacturing. Encryption also prevents identity 
theft, which has been consumers' top complaint to the Federal 
Trade Commission for 15 consecutive years.
    Third, nearly every digital business wants to be global, 
but mandatory government back doors may spark a trade war and 
imprison businesses in their home country.
    Fourth, Government's conflicting messages about data 
protection create uncertainty about business expectations. 
Uncertainty creates risk, inhibits growth and job creation, and 
especially harms startups and small business. Handling customer 
data securely is an essential business commitment. Customers 
worldwide demand this.
    The media routinely report on data breaches and organized 
cybercrime. In response, and strongly encouraged by government 
agencies, including the FBI, developers have prioritized 
security.
    Given the magnitude of cybercrime and of government 
resources committed to fighting it, law enforcement criticism 
of encryption is perplexing. For several years law enforcement 
has routinely encouraged and even required encryption to 
protect sensitive data.
    Until recently, the FBI Web site recommended all 
organizations, quote, ``encrypt data so the hacker can't read 
it,'' end quote. Quizzically, that recommendation was deleted 
from the FBI Web site just a few weeks ago. In contrast, the 
Federal Trade Commission continues to advise that, quote, 
``encryption is the key to securing personal information 
online.''
    Government mixed messages about privacy and security, slow 
product development, inhibit investors, worry customers, and 
harm all companies, especially startups. Every digital business 
opportunity is global. So the worldwide impact of mandatory 
government back doors is important. Unauthorized U.S. 
Government collection of global communications has created 
international outrage and backlash that is already costing 
American companies billions of dollars.
    Mandating back doors that weaken encryption will exacerbate 
global distrust, and we should expect two reactions. First, 
international governments will demand their own security back 
doors. Second, U.S.-based apps will be deemed noncompliant with 
international privacy laws and be locked out of those markets.
    Developers will have to build many versions of apps to 
serve many markets with different law enforcement demands and 
privacy laws or risk being blocked from those markets. Building 
multiple versions of any product increases costs and runs 
contrary to every rule of digital business.
    Additionally, for good reason, some might be concerned if 
other countries or particular countries demand their own back 
doors. If markets become inaccessible to U.S. Apps because of 
mandatory back doors, then a digital trade war could break out.
    The App Developers Alliance membership is global because 
apps create jobs and deliver value globally. Closed markets may 
benefit some of our members in the short term, but the large 
majority of our members recognize that encryption and privacy 
trade war is substantially negative.
    Finally, the basics of technology, security, and privacy 
are critical. Any security opening creates vulnerability. You 
can't build a back door that only the good guys can walk 
through. Hackers know it. The FBI knows it. And increasingly 
customers know it.
    Forced insecurity harms consumers in all industries, but it 
especially harms startups and small innovators because building 
back doors that are only slightly ajar is technically 
challenging and very expensive.
    There are situations that justify law enforcement access to 
our cell phones, to our apps, to the cloud, but there are many 
legal methods to accomplish this with court approval. Congress 
must insist that law enforcement and national security agencies 
utilize these processes. This is fundamental to America's 
civilian government.
    In closing, please remember that encryption technologies 
are a market response to well-founded consumer, commercial, and 
government demand. When an app developer builds a thriving 
business model around security and consumer trust only to be 
told the FBI wants the product to be secure, but not too 
secure, this disrupts the marketplace. It is bad for 
innovation, for business, and for consumers. Thank you.
    [Prepared statement of Mr. Potter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Hurd. Thank you, Mr. Potter.
    Dr. Blaze, 5 minutes to you.

               STATEMENT OF MATTHEW BLAZE, Ph.D.

    Mr. Blaze. Thank you, Mr. Chairman.
    As a technologist, I am finding myself in the very curious 
position of participating in a debate over the desirability of 
something that sounds wonderful, which is a security system 
that can be bypassed by the good guys, but that also reliably 
keeps the bad guys out.
    And we could certainly discuss that. But as a technologist, 
I can't ignore a stark reality, which is simply that it can't 
be done safely. And if we make wishful policies that assume and 
pretend that we can, there will be terrible consequences for 
our economy and for our national security.
    So it would be difficult to overstate today the importance 
of robust, reliable computing and communications to our 
personal, commercial, and national security. Modern computing 
and network technologies are obviously yielding great benefits 
to our society, and we are depending on them to be reliable and 
trustworthy in the same way that we depend on power and water 
and the rest of our critical infrastructure today.
    But, unfortunately, software-based systems, which is the 
foundation on which all of this modern communications 
technology is based, are also notoriously vulnerable to attack 
by criminals and by hostile nation-states.
    Large-scale data breaches, of course, are literally a daily 
occurrence, and this problem is getting worse rather than 
better as we build larger and more complex systems. And it's 
really not an exaggeration to characterize the state of 
software security as an emerging national crisis.
    And the sad truth behind this is that computer science, my 
field, simply does not know how to build complex large-scale 
software that has reliably correct behavior. This is not a new 
problem. It has nothing to do with encryption or modern 
technology.
    It has been the central focus of computing research since 
the dawn of the programmable computer. And as new technology 
allows us to build larger and more complex systems, the problem 
of ensuring their reliability becomes actually exponentially 
harder with more and more components interacting with each 
other.
    So as we integrate insecure, vulnerable systems into the 
fabric of our economy, the consequences of those systems 
failing become both more likely and increasingly serious. 
Unfortunately, there is no magic bullet for securing software-
based systems. Large systems are fundamentally risky, and this 
is something that we can, at best, manage rather than fix 
outright.
    There are really only two known ways to manage the risk of 
unreliable and insecure software. One is the use of encryption, 
which allows us to process sensitive data over insecure media 
and insecure software systems to the extent that we can. And 
the other is to design our software systems to be as small and 
as simple as we possibly can to minimize the number of features 
that a malicious attacker might be able to find flaws to 
exploit.
    This is why proposals for law enforcement access features 
frighten me so much. Cryptographic systems are among the most 
fragile and subtle elements of modern software. We often 
discover devastating weaknesses in even very simple 
cryptographic systems years after they are designed and 
fielded.
    What third-party access requirements do is take even very 
simple problems that we don't really know how to solve and turn 
them into far more complex problems that we really have no 
chance of reliably solving.
    So backdoor cryptography of the kind advocated by the FBI 
might solve some problems if we could do it, but it's a 
notoriously and well-known difficult problem. We have found 
subtle flaws even in systems designed by the National Security 
Agency, such as the Clipper Chip two decades ago.
    And even if we could get the cryptography right, we'd be 
left with the problem of integrating access features into the 
software. Requiring designers to design around third-party 
access requirements will basically undermine our already 
tenuous ability to defend against attack.
    It's tempting to frame this debate as being between 
personal privacy and law enforcement. But, in fact, the stakes 
are higher than that. We just can't do what the FBI is asking 
without seriously weakening our infrastructure. The ultimate 
beneficiaries will be criminals and rival nation-states.
    Congress faces a crucial choice here: To effectively 
legislate mandatory insecurity in our critical infrastructure 
or to recognize the critical importance of robust security in 
preventing crime in our increasingly connected world. Thank you 
very much.
    [Prepared statement of Mr. Blaze follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Hurd. Thank you, Dr. Blaze.
    I would now like to recognize my fellow Texan, Blake 
Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    Could we get the slide up?
    I think it was Mr. Potter that pointed out the FBI had some 
recommendations on their Web site about encryption that was 
recently taken down. I want to read the two that are 
highlighted.
    And, Ms. Hess, I want to get a couple questions for you on 
that.
    ``Depending on the type of phone, the operating system may 
have encryption available. This can be used to protect the 
user's personal data in case of a loss or theft.''
    And it also says, ``Pass code-protect your mobile device. 
This is the first layer of physical security to protect the 
contents of this device.''
    These are now off of the FBI Web site. Why did the FBI take 
down this guidance?
    Ms. Hess. Yes, sir. Actually, we decided to provide a link 
to that information. That same information actually appears 
through the link to IC3.
    Mr. Farenthold. And you agree that that is probably good 
advice. You still advise people it is a good idea to encrypt 
their data?
    Ms. Hess. Yes, sir. We fully support encryption.
    Mr. Farenthold. All right. Now, Dr. Blaze, you talked about 
the good guys versus the bad guys. Who is a good guy today may 
not always be a good guy. I mean, that definition of good guy, 
bad guy--I mean, it is overly simplistic.
    Who are the good guys? Who are the bad guys? And who makes 
that decision?
    Mr. Blaze. That is certainly true. And I think, even if we 
can draw a line between who we want to have access and who we 
don't, which is, of course, an impossible task in practice, 
we'd still be left with the problem that we wouldn't be able to 
provide access.
    Mr. Farenthold. And, Mr. Bankston, let's talk a little bit 
about a golden key. That is one of the things that folks are 
looking at.
    Wouldn't that become the biggest hacker target in the world 
if it were known there were a golden key and what we have today 
that might be deemed secure as computing power increases might 
become a lot easier to break?
    Mr. Bankston. Yes, Congressman. That is absolutely the 
case. I think that, as Professor Blaze made clear, attempting 
to build such a system would add incredible levels of 
complexity to our system such that it would inevitably, as the 
cybersecurity coordinator at NIST said recently, lead to 
unanticipated vulnerabilities.
    And that doesn't even count the possibility of bad actors 
obtaining the keys. Even if you were to split those keys apart, 
as the NSA director has suggested, you have to put that key 
together somewhere, and wherever you do do that is going to be 
a critical target for anyone who wants to compromise our 
security.
    Mr. Farenthold. Yeah. I have got a very limited time. I 
don't mean to cut you off. I am just trying to get some broad 
general answers. We can get down to the weeds in another 
opportunity.
    Is there anybody on the panel who believes we can build a 
technically secure back door with a golden key? Raise your hand 
and I will recognize you if you think that can be done.
    All right. Let the record reflect no one on the panel 
thinks that that can be done.
    All right. Let's talk a little bit about if we were to go 
ahead and do it. The United States--let's assume they are a 
good guy and we agree to put in a back door for them. All of a 
sudden we want to sell this same product in another country. So 
China wants a back door. North Korea wants a back door.
    Basically, every country is going to want a back door. Does 
anybody disagree with that statement?
    I see no hands coming up for that one either.
    So we then are good. So do we put all of these back doors 
into every system, making it that much more difficult, or do we 
then say, ``All right. Well, this phone is sold in the United 
States. We are going to put a U.S. back door in''?
    Well, that doesn't help our intelligence community abroad. 
And if I wanted to avoid that, I would go to the Cayman 
Islands, which I would assume would have better privacy laws--I 
don't know--there would be some haven country--and buy my phone 
there. Would it then be seized by Customs?
    I mean, I don't see a practical way to implement this. I am 
now appointing you to the NSA. You are the head of the NSA. 
Anybody got a way we can do what we want to do? Raise your hand 
if you have got any suggestions that you think we can do it.
    Mr. Conley.
    Mr. Conley. Yeah. I am no expert. I am probably the least 
technologically savvy guy in this room, maybe. But there are a 
lot of great minds in the United States. I'm trying to figure 
out a way to balance the interests here. It is not an either-or 
situation.
    And Dr. Blaze said--you know, he's a computer scientist. 
I'm sure he's brilliant. But, jeez, I hate to hear talk like, 
``That cannot be done.'' I mean, think about if Jack Kennedy 
said, ``We can't go to the moon. That cannot be done.'' He said 
something else, ``We're going to get there in the next 
decade.''
    So I would say to the computer science community let's get 
the best minds in the United States together on this. We can 
balance the interests here.
    Mr. Farenthold. And I appreciate that because I am a proud 
American as well. But I think what we are saying today is--it 
would be the equivalent of President Kennedy saying, ``We will 
be able to get to the moon in 10 years and nobody else will 
ever be able to get there ever.'' I think that is the 
distinction I would like to draw there.
    It is not like we are saying we can't develop a secure 
system, but we are also saying that can we really develop a 
secure system that will be secure for any length of time that 
somebody smarter might not be able to hack 5 years down the 
road or so.
    Anyway, I see I am already out of time. I appreciate your 
indulgence, Mr. Chairman.
    Mr. Hurd. Thank you.
    Votes have been called on the House floor. And what we are 
going to do is go to Ranking Member Kelly for questions, and 
then we will recess and reconvene 10 minutes after votes.
    I would now like to recognize my good friend, Ms. Kelly 
from Illinois.
    Mr. Connolly. Would my friend Ms. Kelly yield just for a 
second? Because I may not be able to come back.
    I just want to welcome Mr. Potter, who is an old friend and 
colleague of mine. And I wish to welcome Mr. Conley, though I 
wish he would learn how to spell his name.
    Thank you very much.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Bankston, a core component to what we are doing here 
today is examining what we can do to protect the privacy of 
consumer data and not serve as a barrier to law enforcement 
communities' ability to do work that keeps us safe. I know I 
have heard from a number of folks on both sides of the data 
privacy issue.
    And so my question is: Is there such a thing as creating a 
back door that is only for the good guys?
    Mr. Bankston. I am also not a technical expert. I am a 
policy expert. But based on what every expert in the field has 
said not only in the current debate, but also 20 years ago in a 
many-multi-year debate over exactly this issue, the answer is a 
clear no and, in fact, a unanimous no.
    Ms. Kelly. Also, could the existence of a back door created 
in the interest of public safety actually serve as a Trojan 
horse that cybercriminals exploit to their advantage?
    Mr. Bankston. Absolutely. Any back door is going to 
necessarily weaken the security of a system in a way that 
another actor, someone with worse interests than our own 
Government trying to protect us, could exploit.
    Ms. Kelly. Any other comments about that?
    Ms. Hess. Yes, ma'am. First off, when we are discussing 
solutions, what we found in the past is that, if solutions are 
developed on the front end of a design, they're ultimately more 
secure than something that is patched on to the back end of an 
existing solution, of an existing network, or an existing 
device.
    That we also found with respect to what Mr. Bankston refers 
to 20 years ago when a law was enacted that, essentially, most 
thought would decrease security of systems, and that turned out 
not to be the case. To the contrary. Companies actually 
developed more secure ways of being able to still conduct the 
surveillance that we were able to enact back 20 years ago.
    Mr. Bankston. If I may respond to that, I assume Assistant 
Director Hess is referring to CALEA, the Communications 
Assistance for Law Enforcement Act, which actually explicitly 
provided that the phone companies subject to its intercept 
capabilities were under no obligation to prevent or assist in 
the decryption of encryption that was done by their users or 
even encryption that they offered where they did not hold the 
keys. So protection for encryption and, in fact, end-to-end 
encryption was protected explicitly in CALEA.
    Ms. Kelly. Thank you.
    I yield back.
    Mr. Hurd. The gentlelady yields back.
    I would like to recognize the chairman of the committee, 
Chairman Chaffetz, for 5 minutes.
    Mr. Chaffetz. Thank you.
    And I again thank you all for being here.
    There are some important questions that face us.
    Ms. Hess, you have a very important role within the FBI, 
and we appreciate the work that you are doing. But it was said 
earlier--and I want to ask you and give you a chance to respond 
to it.
    But does encryption actually help prevent crime, in your 
opinion?
    Ms. Hess. Yes, sir, it does.
    Mr. Chaffetz. But the policies that the FBI is advocating, 
specifically the Director, don't necessarily fall in line with 
that, do they? I struggle with what the Director is asking for 
because--are you going to have encryption? Not encryption?
    Ms. Hess. Yes, sir. I think the distinction comes from the 
idea that we are not supportive or in favor of encryption, and 
that is not true. That is not accurate. We actually want 
encryption. It secures our networks. It obviously assists us in 
providing security and blocking the cyber threats.
    However, all we're asking for is a way for us to be able 
to, with a lawful order, be able to get information from the 
company so that the provider would be able to provide in 
readable form the potential evidence that we would need in an 
investigation.
    Mr. Chaffetz. So you want encryption, but a key. And 
doesn't that key by its very definition create a vulnerability?
    Ms. Hess. In today's world, sir, I think that there is no 
such thing as absolute security in either the physical or the 
digital world. What we are asking for is not to lower those 
standards by developing some type of lawful intercept or lawful 
access capability but, rather, to come up with a way that we 
may be able to implement perhaps multiple keys or some other 
way to be able to securely access the information--or, 
actually, rather, be able to be provided with the information.
    Mr. Chaffetz. And that is the concern, is that, if you 
create a key--let's pretend it is a key to your house. You can 
go down to Ace Hardware and make a copy of it. Right? Somebody 
is going to be able to figure it out. You can get a locksmith 
who can go and open up your front door.
    And the same principle--unless there is some new technology 
that we don't know about, that is the concern. And that is the 
disconnect from what we hear from the FBI and the reality of--
do you create the hardest, strongest encryption possible, which 
means not having a key?
    And, again, I know we won't necessarily solve it all right 
here in this debate. But I have got to ask you something else 
before I run out of time.
    One of the keen concerns that I have--and I have sponsored 
a bill called the GPS Act--deals with geolocation. There is a 
debate and discussion about metadata versus content, for 
instance, in emails.
    If you and I are trading emails, you have heard the 
Department of Justice argue that the fact that I communicated 
with you is just the metadata. It is not the content of what we 
were talking about.
    Does the Department of Justice believe that your 
geolocation is content or do they just think that that is 
metadata?
    Ms. Hess. Well, sir, first off, for geolocation 
information, we do obtain a search warrant for that 
information.
    Mr. Chaffetz. Always?
    Ms. Hess. But I----
    Mr. Chaffetz. Always?
    Ms. Hess. I would have to ask that we maybe brief you about 
that in more detail at a later time.
    But at the same time, to address your issue about metadata 
and geolocation information, clearly those certainly are useful 
tools, usual techniques, for us to be able to paint the picture 
of what happened in an investigation, but they are not wholly 
inclusive of all the evidence we may need to be able to show 
intent, for example, with the content of the communication.
    Mr. Chaffetz. I understand the need. And I don't have a 
problem if you have probable cause or get a warrant or even 
articulable suspicion.
    What I have a problem with is you tracking geolocation at 
will. And I think Americans have a reasonable right to privacy.
    So post-Jones, what I still struggle to understand from the 
Department of Justice is: What is their guidance? What are 
their rules of the road?
    I mean, I would like to know if you all track my wife or 
not. Do you do that? I know you can. My question is: Do you do 
it?
    And you are giving me a, ``Well, I am not''--I mean, 
clarify that for us. It is not a yes or a no. That is the 
concern. I am not getting a yes or no from you.
    Ms. Hess. I would answer in response to that question that, 
certainly, to obtain any type of information, we would go 
through lawful process.
    Mr. Chaffetz. Is lawful process your ability to track 
geolocation without getting a warrant?
    Ms. Hess. Currently we do get a warrant, is my 
understanding.
    Mr. Chaffetz. And I amasking: Do you always get a warrant 
to track geolocation? The answer is no, isn't it?
    Ms. Hess. There's exigent circumstances. That is correct.
    Mr. Chaffetz. Okay. So describe those circumstances.
    At what level? What is the threshold? What is the guidance?
    Ms. Hess. So, first, I believe it would depend on the type 
of data that we are talking about----
    Mr. Chaffetz. Geolocation.
    Ms. Hess. --and the type of geolocation data, whether 
that's GPS data or whether that's some type of other 
geolocation type of data.
    I again would request that we could certainly brief you on 
this in more detail.
    Mr. Chaffetz. Yeah. I want you to brief the American 
people. This is why I am going to continue asking these 
questions.
    Mr. Chairman, I am out of time. And we have a vote on the 
floor. But this is one of the deep questions I have for the 
Department of Justice.
    Believe me, you are not the first person that can't clearly 
answer this, and I think people have the right to know what 
that answer is.
    Is the Government tracking their geolocation? And right now 
I think the answer unfortunately is, yes, they are. And 
certainly they are at times without a warrant and without 
articulable suspicion.
    With that, I yield back.
    Mr. Hurd. Votes have been called on the House floor. We 
will recess and reconvene 10 minutes after voting.
    [Recess.]
    Mr. Hurd. The Subcommittee on Information Technology will 
reconvene.
    I would like to now recognize my colleague from California 
and fellow recovering computer scientist, Ted Lieu, for 5 
minutes.
    Mr. Lieu. As a recovering computer and science major, it is 
clear to me that creating a pathway for decryption only for 
good guys is technologically stupid. You just can't do that.
    But I am more interested now in knowing, if this were to 
happen, what would the effect of this be on global companies 
and global app developers.
    And, Mr. Potter, in your testimony, you raise concerns that 
device pathway will introduce technological vulnerabilities to 
mobile application.
    What effect would the pathway have on the global 
application developers' market?
    Mr. Potter. Thank you for that question, Congressman Lieu.
    Today every app developer thinks that their marketplace is 
global, their opportunity is global. The Google Play Store is 
global. The Apple devices are global.
    The challenge is in Europe we have a very different privacy 
regime than we have in the United States. And Europe has 
already made--European leaders have already spoken quite 
bluntly that, if they strengthen their privacy laws, it will, 
in fact, harm U.S. companies and create business opportunities 
for European companies.
    So European leaders in the privacy area are very concerned 
about--and they've been pretty blunt about it--Facebook, 
Amazon, Google, collecting data and things like that and what 
do they do with the data. And they are extraordinarily 
distressed with the U.S. Government vacuuming up data 
throughout the world, including listening to phone calls of 
some of their leaders.
    The combination of that, of the political angst and the 
business stress, creates a very easy opportunity for them to 
simply say that any company that has a back door particularly 
to the U.S. Government, which at least in the minds of European 
leaders, does not have a great history of using those back 
doors with discipline, creates a vulnerability that is unlawful 
under European privacy law; and, therefore, you'd be banned 
from the European market.
    Mr. Lieu. Thank you. I appreciate that.
    I am going to reserve the balance of my time to make a 
statement. It is primarily directed at Mr. Conley. I respect 
your public service. I take great offense at your testimony 
today.
    You mention that unaccountable corporate interests such as 
Apple and Google are essentially protecting those who rape, 
defraud, assault, and kill. I think that is offensive. It is a 
fundamental misunderstanding of the problem.
    Why do you think Apple and Google are doing this? It is 
because the public is demanding it, people like me, privacy 
advocates, a public that doesn't want an out-of-control 
surveillance state. It is the public that is asking for this. 
Apple and Google didn't do this because they thought they would 
make less money. This is a private sector response to 
government overreach.
    Let me make another statement that somehow these technology 
companies are not credible because they also collect private 
data. Well, here is the difference. Apple and Google don't have 
coercive power. District attorneys do. The FBI does. NSA does. 
And, to me, it is very simple to draw out the privacy balance 
when it comes to law enforcement and privacy. Just follow the 
damn Constitution.
    And because the NSA didn't do that and other law 
enforcement agencies didn't do that, you are seeing a vast 
public reaction to this. Because of NSA, your colleagues have 
essentially violated the Fourth Amendment rights of every 
American citizen for years by seizing all of our phone records, 
by collecting our Internet traffic. That now is spilling over 
to other aspects of law enforcement.
    And if you want to get this fixed, I suggest you write to 
NSA and the FBI should tell the NSA ``Stop violating our 
rights'' and then maybe you would have the public much more on 
the side of supporting some of what law enforcement is asking 
for.
    And then let me just conclude by saying I do agree with law 
enforcement that we live in a dangerous world and that is why 
our Founders put in the Constitution of the United States of 
America--that is why they put in the Fourth Amendment, because 
they understand that an Orwellian, overreaching Federal 
Government is one of the most dangerous things that this world 
can have.
    I yield back.
    Mr. Conley. Do I get to respond to that?
    Mr. Hurd. The gentleman yields back.
    I would like to recognize my colleague, Mr. Blum from Iowa, 
for 5 minutes.
    Mr. Blum. Thank you, Chairman Hurd.
    I would like to welcome today the panelists. I appreciate 
your insights on this topic.
    And I also would like to acknowledge law enforcement. I 
know it is not easy what you do, and I am so appreciative of 
the amazing job that your departments do. And I love the Thin 
Blue Line. So thank you so much for what you do.
    Ms. Hess, my questions are probably addressed to you. I 
just want to make sure I understand this.
    Law enforcement wants to force the private sector to build 
a back door, if you will, or backdoor key into cell phones, 
into software, things such as that. Is that correct?
    Ms. Hess. Sir, I would actually phrase that from the sense 
that we are simply asking for information that we seek in 
response to a lawful order in a readable format. How that 
actually happens should be the decision of the provider.
    Mr. Blum. So you are not asking for a backdoor key into the 
encrypted software or cell phone?
    Ms. Hess. If we don't have the key, but, yet, the provider 
can get us that information by maintaining the key themselves, 
then that would be obviously a legitimate way to respond to our 
lawful order.
    Mr. Blum. Okay. And what you are asking for only would be 
used if a warrant is issued. Is that correct?
    Ms. Hess. Yes, sir. Everything we are discussing today. 
Yes, sir.
    Mr. Blum. And what we are discussing today would arguably 
make law enforcement's job quicker, easier to apprehend the bad 
guys, as we said. Is that correct?
    Ms. Hess. Yes, sir.
    Mr. Blum. I am a software developer myself, and I am also a 
homebuilder. So I would just like to give you an analogy as I 
understand this.
    Isn't this analogous to the Government asking or requiring 
homebuilders to put a video camera in every room of every new 
home that they build with the guarantee or the promise that the 
Government won't turn it on, ``Don't be concerned. The 
Government will not turn this camera on unless we get a 
warrant''? And that would make law enforcement's job easier, 
correct, and quicker if there is a crime in the home? Isn't 
this analogous to that? Because you are saying, ``Trust us. We 
will only do this if we need to do it.''
    Ms. Hess. Sir, I think the analogy may be better described 
as if we should need to know what is going on in that home. 
Then, as long as the company can respond quickly. Now, that may 
mean that they wire the home, but it certainly doesn't mean 
they necessarily have to have the cameras installed as long as 
they can do that quickly.
    On the other hand, if they can come up with a different way 
to tell us what is going on inside that home and do it quickly 
in a timely manner that is quickly available to us when needed, 
then whatever way they come up with would be acceptable.
    Mr. Blum. Because what troubles me is law enforcement tends 
to agree with--and I will paraphrase here--but that there is a 
reasonable standard of privacy, Fourth Amendment rights, when 
one is in their own home. I think most people in law 
enforcement would agree with that.
    But when it comes to our cell phone conversations, our 
emails, anything that is electronic and data, it seems like 
this reasonable right to privacy isn't there. The people in my 
district in Iowa feel the same way.
    Would you address that, please.
    Ms. Hess. Yes, sir. I would like to.
    I believe that is inaccurate. Certainly you do have a 
reasonable expectation of privacy, which is why what we are 
referring to today and discussing here today requires a 
warrant. Whether that is realtime communications or the data 
stored on that device, it still would require a warrant. And 
that is the threshold under the Constitution.
    Mr. Blum. Thank you.
    And this next question is for anyone on the panel. Does law 
enforcement have other ways, other ways, other than what you 
are asking for, to access the necessary data needed in, let's 
say, 99 percent of the criminal cases? Are there other ways of 
doing this?
    Because it seems like we are always given, as citizens, the 
dichotomy of liberty and giving up liberty and freedom for 
safety. And I believe in American exceptionalism. I believe we 
can have both.
    Aren't there other ways law enforcement can do this?
    Ms. Hess. Yes, sir. I would like to address that.
    I also believe that we can balance liberty and security and 
public safety. I would say that there are certainly--when law 
enforcement is stymied by a particular obstacle in an 
investigation, we will seek all other ways to get the 
information we need.
    But those other ways may delay us in getting that 
information. They may not be timely solutions. They may not be 
encompassing solutions to where we might be able to identify 
other victims or other coconspirators or the vast nature of the 
crime or the impact of the crime, and that is what concerns us, 
to be able to get that information quickly.
    Mr. Blum. And I am out of time. I yield back, Mr. Chairman.
    But, once again, I would like to thank law enforcement for 
the amazing job that you do. Thank you very much.
    Mr. Hurd. The gentleman yields back.
    I would like to recognize myself for 5 minutes for 
questions. I have got questions for everyone.
    So we will start with you, Dr. Blaze. Can you tell us a 
little bit about your background, quickly, your degrees, how 
long have you been involved as a computer scientist in 
cryptology.
    Mr. Blaze. I am computer scientist. My specialty is in 
computer security and cryptography and the applications of 
cryptography to building large-scale systems.
    As a particular focus of my research area, I have been 
concerned with surveillance technologies and some of the issues 
at the intersection of technology and public policy. In this 
issue, 20 years ago I discovered some flaws in the previous 
U.S. Government proposal, the Clipper Chip.
    Mr. Hurd. And you are at a university that the department 
is pretty well known worldwide when it comes to cryptology and 
computer science. Is that correct?
    Mr. Blaze. I would like to think so.
    Mr. Hurd. And I know you are a modest man. So I don't mean 
to ask an indelicate question.
    But you are considered an expert when it comes to 
cryptology and encryption?
    Mr. Blaze. I suppose so.
    Mr. Hurd. So in your expert understanding, is there any way 
to do a split-key approach to encryption?
    Mr. Blaze. There are things we can do, like splitting the 
key between multiple locations, that can reduce some aspects of 
some of the risks in a system like this.
    Mr. Hurd. But it does create additional vulnerabilities----
    Mr. Blaze. That is right.
    Mr. Hurd. --that anyone who has technical capability would 
be able to take advantage of?
    Mr. Blaze. That is right. We can move the risks around from 
one part of the system to another, but there are still 
fundamental problems that we don't know how to solve.
    Mr. Hurd. And this was ultimately part of the problem with 
the Clipper Chip from the 1990s?
    Mr. Blaze. That is right. There were a number of problems 
with the Clipper Chip proposal, but that was one of them.
    Mr. Hurd. Thank you, sir.
    Mr. Potter, as a politician, I am always told don't answer 
hypothetical questions, but I am going to pose a hypothetical 
question to you.
    If there were a back door or a front door put into 
applications or programs of U.S. businesses, how do you think--
the impact that would have on businesses in China, Russia and 
Iran?
    Mr. Potter. I have to anticipate, sir, that those 
governments would ask for their own back door.
    Mr. Hurd. Thank you.
    Mr. Bankston, we are going to save you for last.
    Mr. Conley, if you have a properly issued warrant to go 
into someone's house and there is a safe in that house that is 
locked, what happens?
    Mr. Conley. The safe will be taken out and it would be 
broken into.
    Mr. Hurd. Okay. So in your testimony you mentioned that 
Google--and I believe we can infer Apple--stated that its new 
operating system would make its mobile devices inaccessible to 
law enforcement officials even with a warrant signed by a 
judge. Is that correct?
    Mr. Conley. That is correct.
    Mr. Hurd. So if you had a properly issued warrant, would 
you not be able to get that device?
    Mr. Conley. You could get the device. You couldn't get the 
information off the device if it is running iOS 8.
    Mr. Hurd. So iOS 8--the default setting is a five-digit 
PIN. Correct?
    Mr. Conley. Is it five? It is a pass code of some sort.
    Mr. Hurd. Dr. Blaze, I am a little rusty when it comes to--
so that is 5 factorial over 5. Right? And it would take, what, 
13,000 possible iterations of a potential five-digit PIN? 
Actually, it is a four-digit PIN, I believe what it is, four-
digit PIN.
    Mr. Blaze. Yes.
    Mr. Hurd. So that is 4 factorial over 4, which is even less 
than 13,000.
    Mr. Blaze. 10 to the 4th. So about 10,000.
    Mr. Hurd. For a brute-force method with today's technology, 
is that difficult?
    Mr. Blaze. That is well within the range of a brute-force 
attack.
    Mr. Hurd. And how long would that take, roughly?
    Mr. Blaze. On modern computing hardware, essentially no 
time at all.
    Mr. Hurd. So would you agree that that is the equivalent of 
taking a safe out of a home and using some safe-cracking 
skills? This would be the digital equivalent?
    Mr. Blaze. No. This would be much easier than that.
    Mr. Hurd. Because you are good. You know? I think my 
colleagues from Texas A&M would probably be able to do it, too.
    Now, my next question is to you, also, Mr. Conley, on the 
up-skirting example that you used, if you had surveillance on 
someone doing up-skirting, the fact that they are putting a 
camera to try to take pictures of someone, would that not be 
enough to arrest them?
    Mr. Conley. That would not be enough. In order to commit 
the crime, you have to have taken the photo, and there would be 
no way to prove it. There would be no way to prove that the 
actual photo was taken, what it was taken of. So we could not 
successfully prosecute that case without the photograph, in my 
opinion.
    Mr. Hurd. Excellent.
    I would like to yield to my colleague from California, Mr. 
Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    I do have some more questions along the lines of how easy 
it would be to defeat one of these pathways. So let's say we 
pass law that says: Okay. The Apple iPhone now has to have this 
pathway only for good guys.
    What is to keep a terrorist--and this is for Dr. Blaze--for 
example, from saying, ``Even though I like their multi-colored 
Apple iPhones, I am going to switch to Samsung phones?'' Is 
there anything stopping that from happening?
    Mr. Blaze. No. Fundamentally, the ease of loading 
application software and the wide variety of platforms that we 
have make it very simple for somebody who is determined to use 
unbreakable encryption to do so. It might not be as easy or as 
inexpensive as we would like it to be, but there are no 
fundamental barriers to it.
    Mr. Lieu. And currently, right now, there is nothing 
preventing two people anywhere in the world from downloading an 
encryption program to encrypt end to end those two 
communications that would make this pathway essentially 
meaningless. Is that correct?
    Mr. Blaze. That is right. Now, there may be vulnerabilities 
on the computers that run that software, and, in fact, there 
likely would be for the reasons that I discussed in my written 
testimony. But the encrypted messages themselves in transit 
would be effectively impossible in practice to decrypt.
    Mr. Lieu. And is it your understanding that sometimes 
terrorists now resort to something as simple as just writing 
something on a piece of paper so they are off the grid?
    Mr. Blaze. Well, I am not an expert on terrorists, but I 
would imagine that paper-and-pencil technology is well within 
their----
    Mr. Lieu. And we don't say that companies who make paper 
shredders are somehow protecting terrorists. Correct?
    Mr. Blaze. I have never heard that said.
    Mr. Lieu. So let's talk a little about computer code. It is 
true, isn't it, that computer code is neutral, that is, the 
code cannot tell if the person reading the code or accessing 
the code is Asian or the leader of Hamas or the FBI director or 
gay or a woman or a man? As long you have got the key to that 
encryption, you get in the system. Correct?
    Mr. Blaze. That is right.
    Mr. Lieu. The NSA, would you agree, has one of the most 
secure systems in the world?
    Mr. Blaze. I think they have enormous expertise.
    Mr. Lieu. Curious, isn't it, that we now know so many 
secrets about the NSA not because of technology, but because we 
have human beings?
    And so another aspect of all of this is you would be asking 
the American public to trust all the human beings in the 
Federal Government who could be looking at private data.
    And it turns out, right, that sometimes human beings do 
things you don't want them to do, such as this one person who 
now disclosed all these secrets of the NSA, even though that is 
one of the most secure systems in the world?
    Mr. Blaze. The operational aspects of maintaining any kind 
of large-scale secure system are enormously daunting, as I 
think the NSA discovered 2 years ago.
    Mr. Lieu. Thank you.
    And I yield back.
    Mr. Hurd. Thank you.
    I would like to recognize the ranking member, my good 
friend Ms. Kelly from Illinois, for 5 minutes.
    Ms. Kelly. Thank you.
    Ms. Hess and Mr. Conley, when you are not doing your job, 
you are citizens of our society. So how do you reconcile the 
need for this data with people's privacy interests in their 
data? Because you are a person, too, and then you are in law 
enforcement. So how do you reconcile this?
    Ms. Hess. Yes, ma'am. I will start.
    I certainly obviously value my privacy. I want to make sure 
that my system is as secure as possible. And I think that goes 
back to the points that certainly the FBI is trying to make, 
which is that we support encryption. We want secure networks.
    It is just this inability that, for example, if I was 
committing criminal activity, that that information would be 
completely inaccessible. So in the safe example, we would never 
be able to access what is inside that safe, and that, I think, 
is more to the point of the question because certainly we do 
value privacy and certainly the safeguards of the Constitution.
    Ms. Kelly. Thank you.
    Mr. Conley. As I mentioned in my remarks, too, I value my 
privacy as much as the next person. Just to give you an 
example, recently my computer at home was infiltrated by 
somebody. And so anytime I click onto a link, I get bombarded 
with all sorts of merchandising messages and so forth. Somewhat 
innocuous, but it is clear that my computer was infiltrated. So 
I went out and bought some security software and loaded it onto 
my computer. So I am certainly very cognizant of the need to 
protect my privacy. I do all my banking and so forth on this.
    My position has always been just very simple, that we ought 
to not be able to completely hide valuable evidence of a crime 
that is being committed or has been committed to hold 
individuals accountable for their actions. And that is what I 
am advocating for, some sort of balancing of the interests here 
so that everyone's right to privacy is acknowledged and 
glorified, really, but at the same time law enforcement is not 
completely kept in the dark about these sorts of things.
    Ms. Kelly. I appreciate all of your testimony. And, 
obviously, encryption of data, from what I am hearing, should 
be conducted in a way that respects both law enforcement and 
private consumers' interests.
    So, again, I want to thank the chairman for holding this 
very important hearing.
    Mr. Conley. Mr. Chairman, you had asked the question about 
the pass code and about brute force. And far be it from me, I 
suppose, to challenge Dr. Blaze on brute force.
    But my iPhone is owned by the Commonwealth of 
Massachusetts, and it has seven digits. My pass code is not 
four, but seven. So I suppose the exponential issue there is 
considerably larger, obviously, with seven digits. And I am 
told that, after 10 attempts to break into my--using my pass 
code, that is it. I am blocked out and there is some erasure 
that goes on.
    So at least up to this point in this hearing, I believed 
that there is no brute-force technology out there available 
that could allow law enforcement to break into somebody's 
handheld device.
    And I also ask this question: Can this issue be bifurcated 
in some way so that big corporate computer networks and so 
forth can remain encrypted without any sort of golden key, but 
devices like this, mobile devices, which are now the tools of 
terrorists and criminals, can be accessed on probable cause 
after a magistrate issues a warrant?
    Mr. Hurd. Thank you, Mr. Conley.
    And to answer that question, when I left the CIA, I spent 
about 5 years helping build a cybersecurity company. We did 
penetration testing, technical vulnerability assessments.
    And I would always offer my clients--a lot of times we 
worked with banks, and I would offer my clients the option of, 
``You pay our fee or we get to keep what we take.'' Nobody took 
us up on the last one because we never not got in.
    So the tools, the technical capabilities, are out there. 
That is something that--having a conversation about how do we 
get the right tools and expertise to law enforcement may be a 
conversation where that may be a positive thing that comes from 
this conversation.
    Mr. Conley, last question for you, sir, or sets of 
questions. In the up-skirting example, are there up-skirters in 
Boston that haven't been caught because they have used 
encryption?
    Mr. Conley. Well, this encryption technology is nearly 
brand new. So I am not aware of any cases yet. You know, when 
we caught an up-skirter in Massachusetts, we realized actually 
there was no statute that made it a crime. So the Massachusetts 
legislature quickly took up this issue and made it a crime, 
meteoric.
    Mr. Hurd. As it should be.
    Mr. Conley. As it should be.
    Mr. Hurd. As it should be.
    And, also, to you, I appreciate your work and what you do. 
You know, 9 years I was an undercover officer overseas 
collecting intelligence on threats to the homeland. I collected 
that intelligence to help law enforcement and help folks like 
you and your colleagues put these bad guys away. You do this at 
a threat to your own life. You do this at a threat to your 
family. And I thank you for that.
    But, also, you know, because of the role you play and the 
importance you play, I actually hold you all up to a higher 
standard as well, and I am always proud to stand side by side 
with you all.
    Ms. Hess, question for you. What is the FBI asking for?
    Ms. Hess. Yes, sir, Mr. Chairman.
    I would say that certainly what we are asking for, first 
and foremost, is exactly what we are doing here today and just 
the opportunity for the American public to consider these 
issues and to weigh the risks.
    Because clearly we recognize that there is no absolute 
security, again, in either the physical or the digital world. 
Everything may present a vulnerability. There may already be 
vulnerabilities in place.
    But for law enforcement to not have the ability to accept 
or to receive the information that we might need in order to 
hold those accountable who conduct heinous crimes or who will 
conduct terrorist attacks, that's the question that I think we 
need to balance in the American public. And just by having that 
conversation will help us, I think, to make better informed 
decisions.
    Mr. Hurd. Thank you.
    And, Ms. Hess, does the FBI have any information or data 
that suggests that the inherent vulnerabilities that have been 
discussed about dual encryption is that there is a way to do 
it?
    Ms. Hess. We certainly believe and share Mr. Conley's hope 
that there is some type of innovative solutions out there, that 
we might be able to see government and industry work together 
to come up with--certainly they won't be bulletproof, as has 
been said earlier, but certainly more secure ways of being able 
to get law enforcement what it needs, yet at the same time 
provide layers and layers and layers of security so that the 
providers can provide the customer what they need as well.
    Mr. Hurd. Thank you.
    Mr. Bankston, in your written testimony, you talked about 
the President's Review Group.
    Can you characterize quickly for me what the President's 
Review Group was.
    Mr. Bankston. The President's Review Group was a panel of 
experts picked by the President, five of them, to review the 
NSA's intelligence activities, including a former CIA director 
and a former anti-terrorism czar of the White House. They 
concluded that it should be the policy of the United States to 
promote rather than undermine the use of strong encryption.
    Mr. Hurd. And you highlighted Recommendation 29.
    Mr. Bankston. Number 29.
    Mr. Hurd. And I would like to read that. And I do 
appreciate all of you all's written testimony. But you had a 
lot of great information here.
    Mr. Bankston. Thank you.
    Mr. Hurd. And Recommendation 29 that President Obama's 
Review Group provided was that they recommend, regarding 
encryption, the U.S. Government should fully support and not 
undermine efforts to create encryption standards; number two, 
not in any way subvert, undermine, weaken, or make vulnerable 
generally available commercial software; and, number three, 
increase the use of encryption and urge U.S. companies to do so 
in order to better protect data in transit, at rest, in the 
cloud and other storage. I think that is a pretty good 
recommendation.
    And I would like to close my remarks with some of the 
quotes from Ms. Hess' written testimony: ``Following the rule 
of law and upholding civil liberties and civil rights are not 
burdens. They are what make all of us safer and stronger.'' I 
couldn't agree more with that.
    And, again, I started in the CIA in October of 2000. And on 
September 12, I was the fourth employee in the unit that 
prosecuted the war in Afghanistan and helped infiltrate 
Americans into Afghanistan to bring Al Qaeda and the Taliban to 
justice for their acts of terrorism on our shores.
    And if somebody would have told me on September 13 that it 
would be 14 years prior to an attack happening on our homeland 
again, I would have said you are absolutely crazy. And the 
reason nothing has happened these last 14 years is because our 
men and women in the intelligence community, in law 
enforcement, are acting as if it is September 12, 2001, every 
single day. The velocity that that requires, the dedication, 
the countless hours of sacrifice, is incredible, and I applaud 
everyone for that.
    But that is why I hold everyone in the law enforcement 
intelligence community to a higher standard and that upholding 
civil liberties and civil rights are not burdens. They are what 
make all of us safer and stronger.
    And this is a good conversation, but I would recommend or 
comment that any other future proposals or comments that are 
going to come before this body will be carefully scrutinized by 
this committee, by many of our colleagues, because we can 
protect our country and our civil liberties at the exact same 
time, and that is what we must do.
    So I want to thank all of you all for your time today and 
this conversation. I think it is always helpful. This has 
helped me better understand my opinions on this topic. And I 
would like to thank our witnesses for taking the time to appear 
before us today.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
